OIG Audit Report GR-30-07-003

Office of Justice Programs, Office of Juvenile Justice and Deliquency Prevention,
Cal Ripken Sr. Foundation Community Baseball/Softball Program, Baltimore, Maryland

Audit Report GR-30-07-003


June 2007
Office of the Inspector General


Executive Summary


 The Office of Juvenile Justice and Delinquency Prevention (OJJDP) provides national leadership, coordination, and resources to prevent and respond to juvenile delinquency and victimization. The OJJDP supports states and communities in their efforts to develop and implement effective and coordinated prevention and intervention programs and to improve the juvenile justice system so that it protects public safety, holds offenders accountable, and provides treatment and rehabilitative services tailored to the needs of juveniles and their families. To accomplish this, OJJDP administers financial and technical assistance to communities across the country.
 The Office of the Inspector General has completed an audit of grant number 2004-JL-FX-0024 awarded by OJJDP to the Cal Ripken Sr. Foundation (Foundation) under the Juvenile Justice Delinquency Prevention Congressional Earmark Program. The Foundation is a non-profit organization formed in 2001 to create programs (baseball and softball) and facilities that positively impact disadvantaged youth. The OJJDP awarded the grant to the Foundation on September 20, 2004, in the amount of $2,968,350 for 1-year to provide youth with character building, leadership training, and resistance to drugs using baseball as a means to instill the values of responsibility, respect, integrity, and hard work. OJJDP provided two, 1-year supplemental awards dated September 6, 2005, and August 31, 2006, for $2,959,930 and $2,961,964, respectively. 
 We conducted our audit to determine whether costs claimed under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant. Additionally, we measured the Foundation’s performance against pre-determined benchmarks and evaluated the quantity of the services that the grantee was to provide using the federal funds.
 Our audit found that the Foundation generally complied with grant requirements. We determined that the Foundation is in the process of achieving the grant objectives of increasing team sports and expanding physical activity and physical education opportunities for youth; reducing the appeal of drugs, alcohol, and tobacco; and promoting activities that engage and connect youth to their communities. However, the Foundation charged to the grant over $152,000 in either unsupported or unallowable costs: 

 The grantee’s method of allocating indirect costs to the grant resulted in the grantee claiming over $55,000 in excess indirect costs. 
 The grantee included over $90,000 for property that was not included in the approved grant budgets. The most prominent item is an $80,000 Museum Display at Ripken Stadium. 
 The grantee charged over $6,400 for dental, vision and long term disability fringe benefits that were not specified in the approved budget. 

 In addition, the Foundation overestimated its budgeted fringe benefits by more than $18,000. Our report contains 9 recommendations. We discussed the results of our audit with the Foundation officials and have included their comments in the report as applicable. 







Return to OIG Home Page